INTERIM REPORT: AWARD-FEE CRITERIA
 FOR THE NATIONAL AIRWAY SYSTEMS
            CONTRACT
       Federal Aviation Administration

        Report Number: FI-2008-054
         Date Issued: May 28, 2008
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Interim Report: Award-Fee Criteria for                                  Date:    May 28, 2008
           the National Airway Systems Contract
           Federal Aviation Administration
           Report Number FI-2008-054

  From:    Mark H. Zabarsky                                                             Reply to
                                                                                        Attn. of:   JA-60
           Assistant Inspector General for Acquisition
            and Procurement Audits

    To:    Acting Associate Administrator, Regions and
            Center Operations, Federal Aviation Administration

           As part of our ongoing audit of the Use of Cost-Plus-Award-Fee (CPAF) contracts
           within the Department, we are issuing this report regarding the recent award of the
           Federal Aviation Administration’s (FAA) National Airway Systems contract for
           engineering and technical support. The objectives of our audit are to determine
           whether: (1) award-fee plans established adequate criteria for evaluating
           contractor performance, and (2) the amount of award fees paid to contractors was
           adequately supported. 1

           On June 18, 2007, FAA’s Mike Monroney Aeronautical Center 2 (Aeronautical
           Center) awarded a hybrid-structured contract to ASRC Management Services that
           encompasses a broad range of engineering, technical, and administrative support
           for civilian and military aircraft guidance and surveillance systems. This contract
           includes both CPAF and cost reimbursable line items, for approximately $316
           million—about $243 million was for the CPAF line item. The contract includes 1
           base year and 4 option years. The contractor began providing services in August
           2007, and is presently in the first year of the contract. About $199.4 million
           remains programmed for the CPAF line item for the 4 option years. The
           Aeronautical Center established an award-fee pool totaling about $6.6 million.
           The contractor is presently in the second award-fee performance period. About


           1
             This interim report does not address the second objective, which will be addressed in our Department-wide audit of
              award fees.
           2
             The Aeronautical Center is located in Oklahoma City, Oklahoma.
                                                                                                                      2


$5.4 million in award-fees remain available for the third and subsequent
performance periods.

We performed this audit in accordance with generally accepted government
auditing standards as prescribed by the Comptroller General of the United States.
The details of our scope and methodology are presented in Exhibit A. The
information in this interim report will be included in a later report addressing
Department-wide CPAF contracting issues.


FINDINGS
We found that contracting officials did not justify the cost-effectiveness of
selecting a CPAF-type contract for the National Airway Systems contract.
Through an evaluation of the administrative costs versus the expected benefits, the
contracting officer should be able to assess whether the benefits the government
gains through a CPAF contract will outweigh the additional costs of overseeing
and administering the contract. Without such an evaluation, the Aeronautical
Center had no assurance that a CPAF-type contract was appropriate. Additionally,
the evaluation criteria in the performance evaluation plan 3 did not include
measurable criteria needed to adequately evaluate contractor performance.
Further, a portion of the award-fee criteria required the contractor to merely
comply with basic contractual requirements. The performance evaluation plan
allowed award-fee payments up to 72.5 percent of the award-fee pool for average
or below results. The problems cited in this report existed, in part, because
Aeronautical Center personnel did not have detailed guidance4 on how to structure
award-fee plans to incentivize contractors. As a result of our audit, senior FAA
officials agreed to take action and use another contract type more suitable for
obtaining engineering and technical support, and revise Aeronautical Center
guidance.


The Aeronautical Center Has No Assurance That the CPAF-Type
Contract is Appropriate
Aeronautical Center contracting officials did not justify the cost-effectiveness of
selecting a CPAF-type contract. Performance evaluation on award-fee contracts
requires greater effort and more resources than other contract types because
significant oversight is required to monitor and document contractor performance.
Contracting officers should be able to assess, through an evaluation, whether the

3
  The performance evaluation plan is the basis for determining the amount of award fee and includes the award-fee
   criteria to be considered under each area evaluated; the percentage of award fee, if any, available for each area; and
   the frequency of evaluation periods.
4
  Aeronautical Center guidance on CPAF contracts is contained in Acquisition Work Instruction-103, as amended.
                                                                                       3


benefits gained by selecting a CPAF contract would outweigh the additional costs
of overseeing and administering such a contract. Guidance from other Federal
Government agencies, such as the Departments of the Army and the Air Force,
National Aeronautics and Space Administration, and Environmental Protection
Agency states that before a CPAF contract is selected, a contracting officer should
perform a cost-benefit analysis of the expected benefits versus the added
administrative costs. Such a best practice would be beneficial in helping the
Aeronautical Center ensure an award-fee contract is appropriate. FAA included
this best practice in its Award-Fee Contracting Guide, issued September 2007;5
however, it was three months after the contract was awarded.

We expressed concern to FAA officials about whether a CPAF contract type was
suitable for this contract. As a result of our audit, senior FAA officials agreed to
change the CPAF contract to a cost-plus-fixed-fee contract because the cost and
time required to oversee, monitor, and document the award-fee process outweighs
the benefits of administering the contract.


Award-Fee Plan Criteria Were Too General
The Aeronautical Center did not structure and implement the contract in a way
that effectively motivated the contractor to improve performance and achieve
acquisition outcomes. The performance evaluation plan was vague and did not
include measurable award-fee criteria needed to adequately evaluate contractor
performance. For example, the Performance of Work factor used undefined terms
such as “responsive to changes in work schedules” and “personnel are utilized in
an effective and efficient manner” as standards of review. Performance of Work
and Business Management factors used general terms such as “timely” and
“acceptable” as standards of review. FAA’s Award-Fee Contracting Guide states
that using evaluation factors that are either too broad, or include factors that are
not applicable to a given function, can result in evaluators not being able to
provide meaningful comments to support ratings. FAA’s guidance also states that
outcome-based factors are the least administratively burdensome type of
performance evaluation factors, and should provide the best indicator of overall
success.

Establishing specific criteria based on performance objectives would reduce the
risk of unwarranted or subjective performance evaluations and ratings.
Performance monitors cannot provide meaningful comments and evaluations using
vague or too broadly defined criteria, which could result in inflated evaluations
and, consequently, inappropriately approved award fees. As contract work
progresses from one evaluation period into the next, the relative importance of

5
    Award-Fee Contracting Guidance, Acquisition Policy Division, September 28, 2007.
                                                                                               4


specific evaluation factors may change. The award-fee approach permits unilateral
modification of the detailed evaluation plan to reflect changes in management
emphasis. The Aeronautical Center included a clause in the contract allowing
unilateral change to the evaluation criteria if the contracting officer provides
written notice to the contractor no later than 10 days before the start of an
evaluation period.


Evaluation Criteria and Payment Structure Reward Basic Contract
Compliance
CPAF contracts include a merit-based award fee earned for performance
exceeding contract requirements. For the National Airway Systems contract, we
found the evaluation criteria did not provide proper incentives for the contractor to
strive for better-than-expected results. In our comparison of the performance
evaluation plan with the performance work statement, we found that the award-fee
criteria were not designed to elicit performance above contract requirements.
Rather, a portion of the award-fee evaluation factors merely required the
contractor to comply with basic contractual requirements. For example, one
award-fee factor required that the contractor assign qualified personnel to
accomplish the work—a normal contract expectation. Guidance from other
Federal Government agencies, such as the Departments of the Army and the Air
Force, states that award-fee criteria should focus on the most important aspects of
the procurement that will motivate the contractor to perform in an exceptional
manner. Such a best practice would be beneficial in helping the Aeronautical
Center ensure effective use of award fees.

Additionally, the payment structure used when calculating the award fees under
this contract did not elicit incentives for the contractor to attain better-than-
average results. For example, the payment structure awarded no fee for a
performance score of less than 60, but did award a fee for a score above 60
(Exhibit B). Thus, a performance score of 65, in the “Poor” range, and slightly
above the award threshold, would bestow on the contractor 22.5 percent of the
award-fee pool. If the contractor receives a performance score of 76–85, equating
to average performance with some weaknesses, the payout jumps up to 50 to 72.5
percent of the award-fee pool. Guidance from other Federal Government
agencies, such as the Departments of the Army and the Air Force, and
Environmental Protection Agency, states that contractors should not receive an
award fee for satisfactory performance. Contractors are to be compensated for
satisfactory work through the base fee. 6 The Aeronautical Center must revise its
award-fee payment structures to require contractors to earn high ratings in order to
receive high award fees.

6
    A fixed fee paid to the contractor regardless of the contractor’s evaluated performance.
                                                                                     5


Further, the grading table (Exhibit C) used to compute the amount of award fee
contains a payment structure that associates numerical performance scores
(between 0 and 100) with six adjectival ratings—Superior, Excellent, Good, Fair,
Poor, and Unsatisfactory. The description defining each adjectival rating,
however, was vague and did not clearly define the basis for assigning such a
rating. For example, a rating of excellent is defined as:

“The contractor’s performance exceeds standard. Although there may be several
areas for improvement, these are more than offset by better performance in other
areas.”

In this case, the contractor need not excel to receive a large portion of the available
award-fee pool since the payment structure does not foster exceptional
performance.

Additionally, performance monitors, i.e., Aeronautical Center staff who track and
assess contractor performance daily, were provided with a contractor performance
evaluation form (Exhibit D) containing three adjectival ratings—Excellent,
Satisfactory, and Unsatisfactory—not consistent with the grading table’s six
adjectival ratings.

The Aeronautical Center must clearly describe its adjectival ratings so there will
be a basis for assessing performance, and provide performance monitors with
adjectival ratings consistent with the grading table. Otherwise, performance
monitors may use what appear to be personal criteria, applied arbitrarily, possibly
resulting in the Government overpaying award fees with funds that could have
been put to better use.


RECOMMENDATIONS
We recommend that the Acting Associate Administrator, Regions and Center
Operations, direct the Director of the Aeronautical Center to:

1. Require that the contracting officer use another contract type more suitable for
   the National Airway Systems engineering and technical support services
   contract.

2. Revise Aeronautical Center Acquisition Work Instruction–103 to improve
   performance evaluation plans. Ensure the guidance explains how to:

   a. Develop measurable         award-fee    criteria   for   evaluating   contractor
      performance;
                                                                                          6


       b. Develop award-fee payment structures that encourage contractor excellence
          and explain that contractors will not receive award fees for simply meeting
          contract requirements; and

       c. Define adjectival ratings clearly and provide performance monitors with
          adjectival ratings consistent with the grading table.


AGENCY’S PLANNED ACTIONS TO IMPROVE ONGOING AND
FUTURE AWARD-FEE CONTRACTS
We discussed the problems cited in this report with Aeronautical Center
contracting officials on February 20, 2008, and senior FAA officials, including the
Acting Associate Administrator for Regions and Center Operations, the Assistant
Chief Counsel, Acquisition and Commercial Law Division, and the Deputy
Director of the Aeronautical Center on April 30 and May 1, 2008. As a result,
FAA officials agreed to take the following actions to address the problems cited in
this report: 7

       • Modify the existing National Airway Systems Engineering Division
         support services contract to a cost-plus-fixed-fee-type contract (retroactive
         to the date of the award) within the next 90 days.

       • For future CPAF contracts awarded by the Aeronautical Center:

                 o Require that performance evaluation plans contain award-fee
                   structures that motivate excellent contractor performance by only
                   paying award fees for above-satisfactory performance.

                 o Clearly describe adjectival ratings so there will be a defined basis for
                   assessing performance and ratings consistent with any grading
                   tables.

                 o Enhance the Acquisition Work Instruction–103 related to CPAF
                   contracts, and the documentation needed for these contracts, within
                   the next 90 days.

                 o Enhance the evaluation criteria to become more performance based,
                   and ensure that evaluations are properly conducted and documented
                   in accordance with the criteria set forth in the performance
                   evaluation plan and contract.


7
    FAA’s planned corrective actions were provided via electronic mail, April 30, 2008.
                                                                                 7


          o Require that contracting officers review, compare, and document
            their strategies when justifying the appropriateness of the type of
            contract chosen in accordance with Acquisition Management System
            policy.

As FAA management’s actions are ongoing at the time of this report, we cannot
evaluate the efficiency of these actions; however, we believe the results of these
actions will correct problems identified in this report. Implementing the planned
corrective action of modifying the contract to a cost-plus-fixed-fee will put
approximately $199.4 million in remaining contract funds to better use by
ensuring FAA’s acquisition objectives are being met by using a more suitable
contract type.


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your formal comments within 30 calendar days. Please
indicate the specific actions taken or planned for each recommendation, the target
date for completion, and whether you agree that the remaining $199.4 million of
contract funds can be put to better use by ensuring FAA’s acquisition objectives
are being met via a more suitable contract type. Please provide the original signed
document and an electronic version in Word, not a scanned version. We
appreciate the courtesies and cooperation of FAA representatives during this audit.
If you have any questions concerning this report, please call me at (202) 366-5225
or Terrence Letko, Program Director, at (202) 366-9917.

                                        #

cc: Acting Federal Aviation Administrator
    Vice President of Acquisition and
      Business Services, FAA
    Aeronautical Center Director
    Martin Gertel, M-1
    Anthony Williams, ABU-100
                                                                              8




EXHIBIT A. SCOPE AND METHODOLOGY
This report is associated with our Department-wide audit of Use of CPAF
Contracts, Project Number 07F3011F000. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We reviewed this ongoing contract because of the significant deficiencies found
with our sampled contract, 8 which will be addressed in our forthcoming
Department-wide audit of award fees. The ongoing National Airway Systems
contract is a follow-on contract for one of our sampled contracts. To determine
whether the National Airway Systems engineering and technical support contracts’
award-fee plans were adequately designed we reviewed:

     ¾ FAA’s guidance for award-fee contracts,
     ¾ Performance evaluation plan,
     ¾ Performance Work Statement and deliverables for the contracts and
       selected task orders,
     ¾ Federal Administration Acquisition System Toolset, and Acquisition Work
       Instruction guidance for award-fee contracts, and
     ¾ Best Practices for award-fee contracts (Departments of the Army and the
       Air Force, National Aeronautics and Space Administration, and
       Environmental Protection Agency Award-Fee Guides).

We reviewed the acquisition plan for the ongoing National Airway Systems
engineering and technical support services contract to determine whether
improvements could be made in the methods used for obtaining contract support
services. We also interviewed FAA acquisition and program officials regarding
the performance evaluation plan and process and discussed the results of our
findings on the prior and ongoing National Airway Systems engineering and
technical support contract.




8
    Contract Number DTFA-02-02-D-12127


Exhibit A. Scope and Methodology
                                                                                   9




EXHIBIT B. NATIONAL AIRWAY SYSTEMS CONTRACT AWARD-
FEE CONVERSION CHART

This chart is for use in converting weighted performance points into percentages
of the available award-fee pool:

       Weighted Performance Points          Percentage of Available Award
                  100                                 100.0 Percent
                    99                                100.0
      Superior      98                                100.0
                    97                                100.0
                    96                                100.0
                    95                                  97.5
                    94                                  95.0
                    93                                  92.5
                    92                                  90.0
      Excellent     91                                  87.5
                    90                                  85.0
                    89                                  82.5
                    88                                  80.0
                    87                                  77.5
                    86                                  75.0
                    85                                  72.5
                    84                                  70.0
                    83                                  67.5
                    82                                  65.0
       Good         81                                  62.5
                    80                                  60.0
                    79                                  57.5
                    78                                  55.0
                    77                                  52.5
                    76                                  50.0
                    75                                  47.5
                    74                                  45.0
                    73                                  42.5
                    72                                  40.0
        Fair        71                                  37.5
                    70                                  35.0
                    69                                  32.5
                    68                                  30.0
                    67                                  27.5
                    66                                  25.0
                    65                                  22.5
                    64                                  20.0

Exhibit B. National Airway Systems Contract Award-Fee Conversion
Chart
                                                                10


EXHIBIT B. NATIONAL AIRWAY SYSTEMS CONTRACT AWARD-
FEE CONVERSION CHART (CONTINUED)

Weighted Performance Points     Percentage of Available Award

        Poor         63                       17.5
                     62                       15.0
                     61                       12.5
                     60                       10.0
  Unsatisfactory   Below 60                    0.0




Exhibit B. National Airway Systems Contract Award-Fee Conversion
Chart (Continued)
                                                                                              11




EXHIBIT C. NATIONAL AIRWAY SYSTEMS CONTRACT
GRADING TABLE


 ADJECTIVE                                                                 RANGE OF
PERFORMANCE                                                              PERFORMANCE
   GRADE                             DESCRIPTION                            POINTS

      Superior                  The contractor’s performance                     96 – 100
                                exceeds standard by a substantial
                                margin. The monitor can cite few
                                areas for improvement, all of
                                which are minor.
      Excellent                 The contractor’s performance                      86 – 95
                                exceeds standard. Although there
                                may be several areas for
                                improvement, these are more than
                                offset by better performance in
                                other areas.
        Good                    The contractor’s performance is                   76 – 85
                                standard. Areas for improvement
                                are approximately offset by
                                better performance in other areas.
        Fair                    The contractor’s performance is                   66 – 75
                                less than standard. Although there
                                are areas of good-or-better
                                performance, these are more than
                                offset by lower rated performance
                                in other areas.
        Poor                    The contractor’s performance is                   60 – 65
                                less than standard by a
                                substantial margin. The monitors
                                can cite many areas for
                                improvement, which are not offset
                                by better performance in other
                                areas. Less satisfactory performance
                                would be unacceptable.
   Unsatisfactory*              The contractor’s performance is                  Below 60
                                below minimum acceptable
                                standards. Results are inadequate
                                and require prompt remedial action.
                                Significant deficiencies.

*Any factor/subfactor receiving a grade of unsatisfactory will be assigned zero performance
points for purposes of calculating the award-fee amount.




Exhibit C. National Airway Systems Contract Grading Table
                                                                                                           12


EXHIBIT D. CONTRACTOR PERFORMANCE EVALUATION FORM

              Performance Period: [Insert Start Date] to [Insert End Date]
                    (Please circle one response for each rating area)
I. PERFORMANCE OF WORK: (Performance to include both technical and administrative support,
i.e., administrative/program analyst, quality assurance, secretarial support, etc., within your branch).

Timeliness/Responsiveness:                   excellent         satisfactory      unsatisfactory

Contract employees make a concerted effort to meet established project due dates, comply with travel
requirements, be responsive to changes in workload and work priorities, and provide project status reports;
all in a timely manner.

Quality of Deliverables:                     excellent         satisfactory      unsatisfactory

It is understood that at times the FAA may review and request changes to a product before final delivery by
the contractor to the FAA. The quality of the final delivered hardware, software, documentation, and
administrative support products meet the requirements of the assigned task.

Manpower Utilization:                        excellent         satisfactory      unsatisfactory

Contract employees are being utilized in an effective and efficient manner, and the appropriate skilled
personnel are assigned to accomplish the work requirements.

Equipment/Material Utilization:              excellent         satisfactory      unsatisfactory

Equipment and materials are ordered and delivered in a timely manner, resulting in minimal downtime or
delays in meeting established project milestones. Equipment and materials are utilized on projects for
which they were requested.

II. PROJECT MANAGEMENT:

Management Performance:                      excellent         satisfactory      unsatisfactory

Contractor management participates in work planning, prioritizing of tasks, and responds to FAA direction
on courses of action on work related issues.

Staffing:                                    excellent         satisfactory      unsatisfactory

The contractor has assigned qualified personnel (with allowance for trainees) to accomplish the assigned
tasks. Contractor employees attend requisite training courses to become proficient on FAA systems and
processes.

III. REQUIRED COMMENTS: Please provide comments to support any rating below satisfactory.
Continue on back of this page if additional space is needed. Positive comments also are welcome.



Routing Symbol________        Initials: ________ Date: ________

………Please return to [insert COTR name], AJW-14, by [insert date]…………



Exhibit D. Contractor Performance Evaluation Form
                                                           13


EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Terrence Letko                        Program Director

  Dormayne Dillard-Christian            Project Manager

  Stacie Seaborne                       Program Analyst

  Jean Diaz                             Writer/Editor




Exhibit E. Major Contributors to This Report
The following page contains a textual version of the forms found in Exhibits B and
C of this document. These pages were not in the original document but have been
added here to accommodate assistive technology.
                 Interim Report: Award-Fee Criteria for the
                      National Airway Systems Contract

                      Section 508 Compliant Presentation

Exhibit B. National Airway Systems Contract Award-Fee Conversion Chart

This chart is for use in converting weighted performance points into
percentages of the available award-fee pool:

For Superior, Weighted Performance Points are in the range of 100 to 96, and the
Percentage of Available Award is 100 percent.

For Excellent, Weighted Performance Points are in the range of 95 to 86, and the
Percentage of Available Award is 97.5 to 75 percent.

For Good, Weighted Performance Points are in the range of 85 to 76, and the
Percentage of Available Award is 72.5 to 50 percent.

For Fair, Weighted Performance Points are in the range of 75 to 66, and the
Percentage of Available Award is 47.5 to 25 percent.

For Poor, Weighted Performance Points are in the range of 65 to 60, and the
Percentage of Available Award is 22.5 to 10 percent.

For Unsatisfactory, Weighted Performance Points are 0, and the Percentage of
Available Award is 0.
Exhibit C. National Airway Systems Contract Grading Table
The Adjective Performance Grade of Superior is described as the contractor’s
performance exceeds standard by a substantial margin. The monitor can cite few areas
for improvement, all of which are minor, with a range of performance points of 96 – 100.

The Adjective Performance Grade of Excellent is described as the contractor’s
performance exceeds standard. Although there may be several areas for improvement,
these are more than offset by better performance in other areas, with a range of
performance points 86 – 95.

The Adjective Performance Grade of Good is described as the contractor’s performance
is standard. Areas for improvement are approximately offset by better performance in
other areas, with a range of performance points 76 – 85.

The Adjective Performance Grade of Fair is described as the contractor’s performance is
less than standard. Although there are areas of good-or-better performance, these are
more than offset by lower rated performance in other areas, with a range of performance
points 66 – 75.

The Adjective Performance Grade of Poor is described as the contractor’s performance is
less than standard by a substantial margin. The monitors can cite many areas for
improvement, which are not offset by better performance in other areas. Less satisfactory
performance would be unacceptable, with a range of performance points 60 – 65.


The Adjective Performance Grade of Unsatisfactory is described as the contractor’s
performance is below minimum acceptable standards. Results are inadequate and require
prompt remedial action; significant deficiencies, with performance points below 60.


Any factor/subfactor receiving a grade of unsatisfactory will be assigned zero
performance points for purposes of calculating the award-fee amount.
